Audit of USAID/Guinea’s Monitoring and
Reporting of Its Health Program
7-675-04-005-P

June 17, 2004




                 Dakar, Senegal
(This page intentionally left blank)
June 17, 2004

MEMORANDUM

FOR:            USAID/Guinea Director, Annette Adams

FROM:           RIG/Dakar, Lee Jewell III /s/

SUBJECT:        Audit of USAID/Guinea’s Monitoring and Reporting of Its
                Health Program (Report No. 7-675-04-005-P)


This memorandum is our final report on the subject audit. In finalizing this
report, we considered management’s comments on our draft report and
have included them in Appendix II.

This report contains two recommendations. Based on appropriate action
taken by the Mission, management decisions have been reached on both
recommendations. The first recommendation is considered closed upon
the issuance of the final report. However, recommendation number two
will be considered closed only after the Mission has informed us that, as
it proposes, it has pre-tested its action plans during the site visits and
then finalized them based on the results by July 2004.

I appreciate the cooperation and courtesies extended to the members of
our audit team during this audit.




                                                                               1
(This page intentionally left blank)




                                       2
Table of   Summary of Results                                                   5
Contents
           Background                                                           5

           Audit Objective                                                      6

           Audit Findings                                                       7

                   Does USAID/Guinea monitor the performance of its health
                   program to ensure that the intended results are achieved?    7

                      Monitoring by Management Sciences for Health
                      Needs Improvement                                         8

                      Reported Data Needs To Be Reliable and Valid             12

           Management Comments and Our Evaluation                              14

           Appendix I – Scope and Methodology                                  17

           Appendix II – Management Comments                                   19




                                                                                    3
(This page intentionally left blank)




                                       4
Summary of   The objective of this audit was to determine whether USAID/Guinea
Results      monitors the performance of its health program in a manner to ensure
             that intended results are achieved. We determined that even though the
             USAID/Guinea staff had made efforts to monitor the health program, the
             Mission still needed to improve management oversight of the health
             program activities. (See pages 6 and 7.)

             USAID/Guinea staff communicated regularly with the staff of the
             implementing partners and made regular visits to the implementing
             partners’ offices and activities. In addition, the indicator sheets created
             by the Mission were very detailed, allowing a reader to determine the
             unit of measure, description, source, targets, actual results, and other
             comments for each indicator. (See page 7.)

             While these monitoring activities were significant and provided the
             health team with information for general program oversight,
             improvements are needed to ensure proper management oversight of the
             health program activities. The first problem noted was the inefficient
             and ineffective operations of the project-supported government health
             centers due to a lack of monitoring on the part of the implementing
             partner. To address this finding, we recommend that (1) the Mission
             develop procedures for monitoring visits by the implementing partner
             (visits which would include the use of a checklist to standardize these
             visits) and (2) the implementing partners submit quarterly monitoring
             reports to the Mission. (See pages 8 to 12.)

             The second problem we identified was the reporting of inaccurate and
             inconsistent data by the partners. This occurred because the Mission was
             not consistently checking the reported results. We recommend that the
             Mission develop procedures for verifying data during monitoring visits
             to the partners. (See pages 12 to 14.)


Background   According to a survey jointly sponsored by several major international
             organizations, Guinea’s health statistics are among the worst in the
             world, with infant, child and maternal mortality rates at unacceptably
             high levels, a weak health infrastructure, and a burgeoning HIV/AIDS
             crisis.

             In FY 2003, the major components of USAID/Guinea’s health program
             included activities to:

              1. improve maternal and child health;



                                                                                           5
                   2. prevent the spread of HIV/AIDS; and

                   3. improve reproductive health services.

                  In FY 2004, the Mission expects to continue in the above activities. In
                  maternal and child health, it will focus on institutionalizing integrated
                  management of childhood illnesses and on carrying out a Demographic
                  and Health Survey. The survey will provide data to assess the 1997-
                  2005 Country Strategic Plan and serve as a baseline for a follow-on
                  strategy. To prevent the spread of HIV/AIDS, the Mission is prioritizing
                  those areas hardest hit by the epidemic and will continue using multi-
                  sector approaches and grants to non-governmental organizations, who
                  will target as many geographic areas and segments of the population as
                  possible. Finally, the Mission will continue work to improve access to,
                  and the quality of, reproductive health services and to work with the
                  Ministry of Health nationally to ensure a sustainable system for
                  contraceptive procurement.

                  To conduct its health program, USAID/Guinea funds several
                  implementing partners. The two principal ones are Management
                  Sciences for Health (MSH) and Population Services International (PSI).
                  MSH’s principal activities involve working with the Government of
                  Guinea (GOG) health centers to improve access to, and the quality of,
                  health center services. PSI’s activities focus on maternal and child
                  health, as well as on family planning and HIV/AIDS prevention through
                  the social marketing of contraceptives and oral rehydrating salts. The
                  GOG’s cooperation with these partners is a key element to achieving the
                  desired USAID/Guinea’s health program goals.

                  Total funding for the three major components of USAID/Guinea’s health
                  program for fiscal year 2003 was $6,910,000. The amount is expected to
                  be near the same level ($6,659,000) in fiscal year 2004.


Audit Objective   In accordance with its fiscal year 2004 audit plan, the Regional Inspector
                  General, Dakar, performed this audit to answer the following audit
                  objective:

                  Does USAID/Guinea monitor the performance of its health program
                  to ensure that intended results are achieved?

                  Appendix I contains a complete discussion of the scope and methodology
                  of the audit.




                                                                                               6
                 Does USAID/Guinea monitor the performance of its health program
Audit Findings   to ensure that the intended results are achieved?

                 Even though the USAID/Guinea staff made efforts to monitor the health
                 program, the Mission still needed to improve management oversight of
                 the health program activities. Mission staff have made many efforts to
                 monitor program activities, including performing some site visits and
                 communicating with the program’s implementing partners. However,
                 there were still problems due to the monitoring of the program, including
                 inefficient health center operations and inaccuracy of reported data.

                 USAID/Guinea staff indicated that they communicated regularly with the
                 staff of the implementing partners, and the partners agreed that such
                 communication took place. The Cognizant Technical Officers (CTOs) –
                 comprising of a public health specialist and two reproductive health
                 specialists – and the health team leader made regular visits to the
                 implementing partners’ offices and the sites where activities are
                 implemented. These site visits were well documented with specific
                 details of the trip, and any problems noted during the trip were identified.
                 Trip reports were kept on a shared computer drive and were readily
                 available for review. During a trip made by the health team leader in
                 October of 2003, he noted several problems that this audit identified as
                 well and made specific recommendations to the implementing partner.

                 In addition, the Mission and its partners funded surveys to measure the
                 impact of its health interventions in the country. The indicator sheets
                 created by the Mission were very detailed, allowing a reader to
                 determine the unit of measure, description, source, targets, actual results,
                 and other comments for each indicator.

                 The efforts described above helped keep the health program on track
                 towards achieving its intended results. Significant gains were made:
                 During 2003, according to survey reports, the vaccination coverage for
                 DPT3 (diphtheria, pertussis, and tetanus) and measles increased from
                 45.8 percent to 64.9 percent and 61.6 percent to 72.1 percent,
                 respectively.    The Mission also scaled up successful nutrition
                 interventions by expanding efforts to increase Vitamin A distribution and
                 decrease anemia among women and children. Another success,
                 unrelated to monitoring efforts, was in the HIV/AIDS prevention area.
                 As a proxy to measuring the impact of HIV/AIDS prevention campaign,
                 the Mission reported and was confirmed by PRISM’s (Pour Renforcer
                 les Interventions en Santé reproductive et MST/SIDA – the social
                 marketing arm of Management Sciences for Health) Enquete Ménage
                 2003 Indicator Table that the percentage of men reporting condom use


                                                                                                7
during their last sexual intercourse with a non-regular partner was
57.8%. This figure exceeded the Mission’s target of 32% for fiscal year
2003. However, with more comprehensive monitoring of health
activities, further gains could be realized.




Photo taken March 23, 2004, outside Missamana Health Center, in Upper Guinea.
The Health Center is one of many to which USAID implementing partner
Management Sciences for Health provides medical supplies, training, and
equipment. Shown (l–r) are Neil Woodruff, USAID/Guinea Health Team Leader;
Tenin Diawara and Keita Siaka, Health Center Technicians; Dr. Dem, MSH; and
Zac Bao, RIG/Dakar Auditor.

While the monitoring activities were significant and provided the health
team with information for general program oversight, improvements
were still needed to ensure proper management oversight of the health
program activities.     These included developing procedures for
monitoring at the partner level and checking reported results of the
partners.

Monitoring By Management
Sciences for Health Needs Improvement

Health centers were not operating as efficiently and effectively as
possible due to inadequate monitoring on the part of the implementing
partner. The cooperating agreement between Management Sciences for
Health (MSH) and USAID/Guinea stated that the effectiveness and
efficiency of the program implementation was the responsibility of

                                                                                8
MSH. As a result of the inefficient operations at the health centers, the
implementing partner was not meeting its full potential in addressing the
global health issues of Guinea.

A major part of the MSH activities entailed working with the
Government of Guinea health centers in the Upper Guinea region of the
country to improve access to, and the quality of, health center services.
Because of the difficulty and time required to make site visits the audit
only conducted two site visits at the Missamana Health Center and the
Koumban Health Center, both in the Kankan region of Upper Guinea.
However, these health centers were considered typical and during our
visits we identified numerous problems in the operations of the health
centers that could have been addressed by better monitoring:

   missing and unused project equipment;

   mixing of expired and unexpired stock inventories;

   stocks not issued on a first-to-expire-first-out basis;

   stock cards not matching inventories; and

   safety concerns.

Maternity Kit Usage - MSH reported that all health centers in the
intervention zone of Upper Guinea had received a maternity kit that
included a delivery kit, dressing kit, measuring tape, sphygmomanometer
(an instrument for measuring the pressure of the blood in an artery), fetal
stethoscope, salter balance (for measuring newborns), kidney basin,
speculum, sterilizer drum (a specially constructed metallic drum that
keeps surgical and other hospital instruments free from living germs or
microorganisms), and gloves. During a site visit to the Missamana
Health Center, the kit could not be located. The director of the center
was absent, but two other center staff members stated that they had no
recollection of receiving the kit. A MSH official examined the health
center and was unable to find any of the items mentioned in the kit.
However, the following day at MSH headquarters, delivery of the
maternity kit for the center was found to be documented by a delivery
receipt signed by the director of the center. In the Koumban Health
Center, the maternity kit was identified and appeared to be in use except
for the drum sterilizer, which was still in its original packaging.

Poor Stock Control - Another problem at the health centers was the
mixing of expired and unexpired stock. In Missamana, of the 500
packages of Ovrettes (an oral contraceptive), 400 were expired but still
kept together with the unexpired packages. Lofemenal, another oral


                                                                              9
contraceptive, had the same problem; 100 packages of the 300 in stock
were out of date but not separated. In addition, 19 units of Depo-Provera
(an injected contraceptive) had expired in November 2003 but again had
not been separated.

We also found that in the stock rooms of both health centers the order of
use for the medicine had not been followed as required. Although the
oldest, non-expired medicine should be distributed first, the newer stock
of Depo-Provera at Missamana was distributed before other stock that
was to expire in the following month. The same problem was found in
Koumban: Depo-Provera set to expire in August 2004 was distributed
instead of the box dated June 2004.

Inaccurate Stock Cards - Stock cards that did not agree with actual
quantities was noted in both Missamana and Koumban. In Missamana,
the stock cards did not match actual quantities for penicillin and
erythromycin. Seven boxes of syringes on top of the shelves were not
included in the inventory. In Koumban, the director was writing on the
stock cards to update the information during the review of the inventory
and was advised by the auditors that the update should have been done
earlier; not while a site visit was being performed.

Safety Concerns - The final problem noted with the health centers relates
to safety concerns. When leaving the Missamana health center, the
auditor noticed a used needle on the ground, as well as possibly
hazardous trash from the medicines.

MSH Responsibilities - In accordance with the cooperative agreement
dated December 20, 2002, MSH works with Government of Guinea
health centers in the identified intervention zone of Upper Guinea.
While the Government of Guinea is responsible for the overall
management of the health centers, MSH is responsible for the oversight
and monitoring of their activities. MSH is trying to expand the
accessibility of services, improve the quality of services, and apply
effective tools for improving quality and management. The goal of the
program is to develop the local capacity and the sustainability of local
institutions through fully integrating the health centers in family
planning, sexually transmitted infection (STI) prevention and care,
prenatal care, child survival/Integrated Management of Childhood
Illness, safe motherhood, and basic HIV/AIDS services. The health
centers should have fully trained staff benefiting from improved
monitoring and should have basic medical equipment, management
tools, and information, education and communication materials. The
health centers should operate through an improved essential drug and
commodity management system and have local capacity to better
manage and maintain the infrastructure and large equipment needs. The


                                                                            10
cooperative agreement states that MSH will have overall responsibility
for effective and timely program implementation to achieve and report
on intermediate results and meet the targets set for the performance
indicators.

The centers were operating inefficiently and ineffectively because
monitoring by MSH was inadequate. The Monitoring and Evaluation
Specialist at MSH stated that monitoring visits were to be performed for
each health center in the intervention zone once per quarter. MSH
management, including the Monitoring and Evaluation Specialist,
acknowledged that monitoring during 2003 was inadequate. Both the
USAID health team leader and the USAID CTO for MSH were aware
that monitoring by the implementing partner was a problem, and they
had addressed the issue with MSH. In October 2003, the USAID health
team leader made a written recommendation to MSH to develop a new
plan for strengthening the current monitoring of health centers. In a
memorandum on December 1, 2003, MSH responded to the
recommendation, stating that they fully understood and agreed that
priority be given to strengthening monitoring. However, based on
observations during fieldwork, monitoring continued to be inadequate.

In discussions with the MSH personnel, we found that monitoring was
lacking in the past because MSH personnel preferred to perform
monitoring visits in conjunction with the Government of Guinea
Direction Préfectorale de la Santé Publique (DPS), the governmental
organization responsible for oversight and monitoring of the health
centers. However, MSH and DPS were unable to coordinate the timing
of monitoring visits resulting in the visits not being conducted. MSH
management stated that monitoring visits were better performed in
conjunction with the DPS as MSH did not want the DPS to think it had
taken over this role, so it did not perform site visits alone. Nevertheless,
even if DPS was not properly supervising the centers, MSH still had the
obligation to supervise its own projects.

As a result of the centers operating ineffectively and inefficiently, the
MSH program was not meeting its full potential to address the global
health issues of Guinea, specifically within the intervention zone.

Therefore, to address this inadequate monitoring, we make the following
recommendation.

       Recommendation No. 1: We recommend that USAID/Guinea
       implement procedures requiring monitoring to be performed
       by the implementing partner, Management Sciences for
       Health, in conjunction with, when possible, the Government
       of Guinea. As part of these procedures, the Mission must


                                                                               11
       require the implementing partner to report to the Mission
       regarding the monitoring visits in the quarterly reports.


Reported Data Needs To
Be Reliable and Valid

Selected reported results at the partner level were unreliable and invalid
even though USAID guidance stresses the importance of valid, timely,
precise and reliable results reporting information in order to properly
measure results. The problems with the data occurred because the
Mission’s health team did not systematically check source documents of
reported results. Consequently, the Mission may have been under- or
over-reporting results to USAID/Washington.

During visits to the two key implementing partners for the health
program, MSH and Population Services International (PSI), we found
that results reported to USAID/Guinea were unreliable and invalid.
Although some of the discrepancies were immaterial, when taken as a
whole they were significant.

Reliability of Data – On average, MSH was missing more than five
monthly reports from each of the 19 health centers in the Kankan region
for fiscal year (FY) 2003. This is almost 50% of required reporting
missing. For the various reports that were received, data discrepancies
existed. For example, Koumban health center management was
reporting only on family planning (FP) activities at the center even
though they should have been reporting on community activities as well.
PRISM did not have any copies of the center’s FP reports. The center
used the Rapport Mensuel Des Centres De Santé (RMDCDS) as its
reporting on the center’s FP activities. When we examined copies of the
RMDCDS, we found that 3 out of the 12 months (25%) for 2003 did not
complete the FP section. We were not able to see any documentation
supporting the information included in the RMDCDS. We were
informed at Koumban that the FP information is included on RMDCDS
report for the clinic. The community FP information is included on the
Rapport Mensuel Du Superviseur SBC. No combination is made or
reported. However, at the other center in Missamana, we had been told
they combined the FP information for the center and the community in
the RMDCDS report. Thus, there was no consistent reporting between
centers.

In addition, the form of MSH’s reported information differed from the
target. The number of religious leaders trained for HIV/AIDS awareness
is given as a cumulative target per the implementation plan, but MSH
reported the number trained for the period. MSH also reported the


                                                                             12
number of districts with health communities in the intervention zone
whereas the implementation plan target is based on the number of
prefectures with health communities (districts make up a prefecture).
Because the reported information was not consistent with the targets, it
was difficult to determine if the Mission was meeting its targets.

The data reported by PSI was also found to have weaknesses. Data from
July was inappropriately included in the August - September 2003
report. Furthermore, there were discrepancies within the report itself.
The couple of years protection calculation was reported at 17,234 in the
narrative section of the report, but in Appendix I of the same report, the
calculation was shown as 17,397. The number of sales outlets for
condoms was reported at 10,113 in the narrative section, but at 10,089 in
Appendix IV.

Another problem at PSI was the inconsistent record keeping among PSI
employees. PSI reported to USAID/Guinea via email the sales of re-
hydration salts for FY 2002 at 2,698,544, but Appendix II of the
quarterly report (a chart) showed 2,698,691 in sales. When a report for
the sales database was generated at PSI headquarters, the sales number
had yet a different amount of 2,698,640. This brought into question the
reliability of any of these numbers.

Validity of Data - As with the reliability of data, the validity of the data
reported by both implementing partners was a problem. At MSH
headquarters, source documents for the four selected project indicators,
two of which were reported in the Mission’s Annual Report, did not
agree with reported results. The number of religious leaders trained for
HIV/AIDS awareness was underreported by 20 (217 reported instead of
the 237 trained or 8.4% less) and was also underreported in the
Mission’s Annual Report. The percentage of health centers integrated in
STI treatment services was reported in the USAID Annual Report at 66
percent, but the calculation based on source documents was 64.2 percent.
Immaterial but nevertheless exacerbating the inaccuracy of reporting, the
number of health communities in districts was off by 1 out of 143 and,
more significantly, the number of community agents trained in safe
motherhood should have been reported at 19 agents instead of 32 in
MSH’s Year End 2003 report.

Validity was also a problem with PSI-reported information. The
indicator of new wholesalers for the period was reported as four—even
though documentation provided showed only one new wholesaler.

USAID’s Automated Directives System (ADS) guidance stresses the
importance of valid and reliable results reporting information in order to
properly measure results. According to ADS 203.3.5.1, data quality


                                                                               13
                 standards include validity, integrity, precision, reliability, and timeliness.
                 Valid data should be clearly and adequately represented in the intended
                 result. Data should also be reliable—reflecting stable and consistent data
                 collection processes and analysis methods over time. According to ADS
                 203.3.8.1, the annual report is the Agency’s principal tool for assessing
                 program performance on an annual basis and for communicating the
                 information to higher management levels. In addition, the General
                 Accounting Office’s Standards for Internal Controls in the Federal
                 Government state that all transactions and significant events need to be
                 clearly documented and that the documentation should be readily
                 available for examination.

                 Unreliable and invalid data existed at the partner level because the
                 Mission staff did not consistently review and verify results reported by
                 the partners.

                 Because the reported information was unreliable and invalid, the Mission
                 may have under- or over-reported to USAID/Washington in the annual
                 report. In addition, the Mission may have used incorrect information to
                 make programmatic decisions. In order to address this issue, we are
                 making the following recommendation.

                        Recommendation No. 2: We recommend that USAID/Guinea
                        develop procedures to ensure that reported results are
                        verified by source documentation during monitoring visits to
                        implementing partner offices and sites.




Management       In response to the draft report, USAID/Guinea agreed with all of the
                 findings and recommendations in the draft audit report. Based on
Comments and
                 appropriate action taken by the Mission, management decisions have
Our Evaluation   been reached on both recommendations. The first recommendation is
                 considered closed upon the issuance of the final report. However,
                 recommendation number two will be considered closed only after the
                 Mission has informed us that, as it proposes, it has pre-tested its action
                 plans during the site visits and then finalized them based on the results
                 by July 2004.

                 Recommendation No. 1 proposes that the Mission implement procedures
                 requiring monitoring to be performed by the implementing partner,
                 Management Sciences for Health, in conjunction with, when possible,
                 the Government of Guinea. As part of these procedures, the Mission
                 must require the implementing partner to report to the Mission regarding
                 the monitoring visits in the quarterly reports. The Mission concurred

                                                                                                  14
with this recommendation and has already required MSH to submit a
continuation application for approval by USAID prior to receipt of any
additional funding. As part of its continuation application that was
submitted on May 10, 2004, MSH incorporated into its proposed work
plan a ten point strategy for improving monitoring of the performance of
health centers. Additionally, the Mission’s Acquisition and Assistance
Specialist formally responded to the MSH proposal on May 26, 2004
with six additional recommendations for further strengthening the
monitoring of the health centers by MSH which the latter agreed to
incorporate into their revised work plan resubmitted to USAID on or
around June 1. MSH has also agreed to include specific status updates
on implementation of the health center monitoring plan in its quarterly
reports to USAID. These measures will become part of MSH’s
cooperative agreement, and MSH will be contractually bound to them.
The Mission believes, and we agree, that when the renewal of the
cooperative agreement has been negotiated and finalized (expected in
June, 2004), Recommendation # 1 will have been satisfied.

Recommendation No. 2 states that the Mission develop procedures to
ensure that reported results are verified by checking source
documentation during monitoring visits to implementing partner offices
and sites. The Mission has indicated that it will develop a “Record of
Site Visit” form in consultation with the USAID/Guinea Program Office
that describes procedures to ensure that reported results are verified by
source documentation during monitoring visits to implementing partner
officers and sites. This form will be based on one developed by
USAID/Benin in response to a similar audit recommendation. The form
will be pre-tested during the next few site visits and then finalized based
on the results. Mission expects that this action will be completed by
July, 2004 and that this will, we agree, satisfy Recommendation #2.

The Mission, while acknowledging and regretting the discovery by the
auditors of discrepancies in reported data for the indicators selected,
nevertheless considers all the discrepancies to be relatively minor.
Mission does not believe those errors would lead the Mission to make
poor programmatic decisions or report significantly erroneous results to
USAID/W. We believe however that the frequency of the errors, which
could have been prevented had the procedures we now recommend been
used, renders them potentially significant. We therefore made our
recommendation as a preventive measure.




                                                                              15
(This page intentionally left blank)




                                       16
                                                                                     Appendix I



Scope and     Scope
Methodology
              The Regional Inspector General, Dakar, conducted this audit in
              accordance with generally accepted government auditing standards. The
              purpose of the audit was to determine whether USAID/Guinea monitors
              the performance of its health program in a manner that ensures intended
              results are achieved. The audit was conducted at USAID/Guinea in
              Conakry from March 16 to April 2, 2004. Site visits were also made to
              the offices of two implementing partners (IP): Management Sciences for
              Health and Population Services International, the former located in
              Kankan and the latter located in Conakry, with a satellite office in
              Kankan.

              While visiting the IP offices in Conakry and Kankan, we also visited two
              Government of Guinea (GOG) health centers in Missamana and
              Koumban in the Kankan Region of Upper Guinea, where we observed
              health program activities and talked with the centers’ technical
              personnel. Additionally, we visited the region’s health administrative
              offices in Kankan, the Direction Préfectorale de la Santé Publique, where
              we discussed with GOG health officials our experience at the health
              centers and other health program monitoring issues.

              The audit scope focused on examining the procedures used by the
              Mission and the selected implementing partners (IPs) to monitor health
              program activities. This included reviewing reports prepared by the
              Mission and partners, reviewing and tracking indictors back to a variety
              of source documents, and visiting partner offices and field sites to review
              documentation and observe activities. It also included reviewing the
              Mission’s achievement of its reported results and assessing the data
              quality of selected performance data for fiscal year (FY) 2003. We also
              assessed the management controls of the program as evidenced by 1)
              records of health team’s contact with the implementing partners as well
              as the health team members’ monitoring trip reports; and 2) health
              team’s review of implementing partners’ quarterly progress reports.
              Additionally, we used USAID guidance, including the Automated
              Directives System, mission reports, and other internal policies and
              procedures as the basis to assess how well Mission management was
              monitoring activities, assessing the indicators used, evaluating the impact
              of its health activities against intended targets, learning from the results
              and providing timely feedback for corrective action or modification of
              focus to its partners. Finally, we reviewed the latest Federal Managers



                                                                                             17
Financial Integrity Act certification submitted by the Mission for any
material control weaknesses relating to the health program.

Methodology

While conducting fieldwork, we performed limited tests of compliance
with USAID procedures regarding results reporting and program
monitoring at the Mission level. To verify the accuracy of performance
indicator data reported to USAID/Washington in the FY 2004 Annual
Report (for activities conducted in FY 2003), we traced the data back to
documentation provided by the IPs to the Mission. We traced the
partners’ data back to their supporting documentation for selected
results, indicators both included in the Mission’s Annual Report as well
as indicators not included in the Annual Report, to determine the
accuracy of reported data. Our verification included examining source
documents such as sign-in sheets for trainings held and electronic and
manual records.

We also interviewed responsible personnel at the USAID Mission in
Guinea and at the two selected implementing partners’ offices, as well as
Government of Guinea’s Ministry of Health officials at field sites,
concerning program activities, monitoring efforts and data accuracy
issues.

In assessing the accuracy of the data, we used a threshold of one percent
for transcription accuracy and five percent for computation accuracy.




                                                                            18
                                                                                         Appendix II


Management
Comments

                  United State Agency for International Development

                                     USAID/Guinea
                                             Conakry


                           Memorandum
DATE:         May 26, 2004

FOR:          RIG/Dakar, Lee Jewell III

FROM:         USAID/Guinea Acting Director, David Atteberry /s/


SUBJECT:      Mission comments on Report No. 7-675-04-00X-P (Audit of USAID/Guinea’s
              Monitoring and Reporting of its Health Program)


I.     Introduction:

This memorandum contains USAID/Guinea’s comments on the subject draft report received on
May 3, 2004. It is divided into two sections: (I.) Audit Recommendations and Corrective Actions
by USAID/Guinea and (II.) Comments on the audit report narrative.

I would like to thank the RIG for the useful feedback provided to the Mission and for the
thoroughness of their work, which included an extended field trip to our major health project area.
The Report will help us improve monitoring and reporting not only of our health program but also
throughout the Mission.

II.    Audit Recommendations and Corrective Actions by USAID/Guinea

The Mission agrees with the recommendations of the auditors and proposes the following steps to
implement them:

A) Recommendation #1 – USAID/Guinea has already required MSH to submit a continuation
application in May, 2004, for approval by USAID prior to receipt of any additional funding. As
part of its continuation application that was submitted on May 10, 2004, MSH incorporated into its

                                                                                                19
proposed work plan a ten point strategy for improving monitoring of the performance of health
centers. USAID/Guinea through its Acquisition and Assistance Specialist formally responded to the
MSH proposal on May 26, 2004 with six additional recommendations for further strengthening the
monitoring of the health centers by MSH. The USAID recommendations included one to create a
check list that would be used by MSH, in addition to the official checklist currently being used by
the Ministry of Health during its supervision visits of health lists. USAID specifically requested
MSH to create a check list that would require supervisors to describe discoveries made during visits
and steps taken to resolve problems, rather than a simple yes/no checklist. MSH has reviewed all of
the USAID suggestions and indicated that they viewed the recommendations favorably and would
incorporate them into their revised work plan that will be resubmitted to USAID about June 1.
MSH has also agreed to include specific status updates on implementation of the health center
monitoring plan in its quarterly reports to USAID. These measures will become part of MSH’s
cooperative agreement, and MSH will be contractually bound to them. We anticipate that the
Cooperative Agreement Amendment for the PRISM project will be signed by the USAID Regional
Contracting Officer in June, following completion of negotiation of the health center monitoring
plan and other issues. We believe that once this agreement is signed in June, 2004, that USAID will
have required the implementing partner (MSH) to implement procedures requiring the monitoring
of health centers and reporting of progress to USAID. We believe that when the renewal of the
cooperative agreement has been negotiated and finalized (expected in June, 2004) that
Recommendation # 1 will have been met.

B) Recommendation #2 – The USAID/Guinea Health Team will develop a “Record of Site Visit”
form in consultation with the USAID/Guinea Program Office that describes procedures to ensure
that reported results are verified by source documentation during monitoring visits to implementing
partner officers and sites. This form will be based on one developed by USAID/Benin in response
to a similar audit recommendation. The form will be pre-tested during the next few site visits and
then finalized based on the results. We expect that this action will be completed by July, 2004 and
that this will satisfy Recommendation #2.

III.   Comments on the Audit Report Narrative

A) Comments on monitoring by the implementing partner, MSH

Over the course of the PRISM project, monitoring has been a chronic problem as it has been for
other health projects being implemented in Guinea. USAID has continually addressed monitoring
with MSH during the course of the project through regular strategy and planning meetings, during
site visits by USAID staff, and during the project midterm evaluation that was conducted by an
outside contractor for USAID in March 2001. During the midterm evaluation, the evaluators
recommended that MSH staff curtail independent monitoring visits to health centers, which had
previously been the practice, and conduct joint supervisions with MOH staff. The Audit Report
narrative states on Page 11 that MSH personnel “preferred to perform monitoring visits in
conjunction with the Government,” while MSH was responding to an official recommendation from
an external evaluation commissioned by USAID.

In December 2002, USAID signed a follow-on agreement with MSH in which it anticipated that
monitoring and supervision would continue to pose problems and specifically included a provision


                                                                                                 20
in the new agreement that required MSH to submit a continuation application after 16 months of
implementation, in order to continue to receive funding. MSH’s performance, particularly in the
area of monitoring, would be assessed after that time and official contractual steps would be taken
to make improvements as necessary. As mentioned in the corrective actions above, MSH has
proposed and USAID/Guinea has approved concrete strategies, which MSH is contractually
responsible for, that should improve overall monitoring of health centers.

USAID and MSH have made significant progress in improving the quality of certain services at
health centers in Upper Guinea as verified through an external quantitative health facility survey
financed by USAID and a household survey contracted by MSH that were both conducted in
October 2003. The health facility survey compared results over time (with results of a similar
survey conducted in FY 2001) and with conditions found in other “non-PRISM” regions of the
country. Results of these surveys indicate unequivocally that the great majority of health centers in
the PRISM project area of Upper Guinea significantly surpassed health centers in other regions of
the country that were surveyed as controls, in the areas of quality of services provided, accuracy of
counseling provided and availability of resources.

B. Comments on Findings Related to Reported Data

We acknowledge and regret the slight discrepancies that the auditors found while verifying reported
data for each of the indicators they selected. We find all of the noted discrepancies to be relatively
minor and of a small enough magnitude that they would not lead the Mission to make poor
programmatic decisions or report significantly erroneous results to USAID/W. We do acknowledge
the discrepancies in data reporting that may have resulted from carelessness.

The Mission’s Health Team consistently verifies source documentation and notes weaknesses (in
the areas of reliability and validity) of reported data in its data quality assessments, which are on
file. ADS and Annual Report Guidance indicates that data quality should be verified every three
years for data used in the Annual Report.

C. Minor Corrections

The following are minor corrections:

Page 5 - In the background section, gains made in FY 2002 are listed. Should this be 2003?

Page 7 - The mission and its partners funded surveys to measure the impact of its interventions
not to “determine the actual statistics of the country.” We, however, will be conducting a DHS in
FY 2004 to obtain nationwide statistics in a variety of areas.

Page 8 - In the caption under the picture the second person from the right is Dr. Dem (not Dr.
Dieng).

Page 12 – In the fourth full paragraph, the report cites oral rehydration salts sales data for FY 2002.
Should this be FY 2003?



                                                                                                    21
IV.    Conclusion

Once again USAID/Guinea extends its appreciation to the RIG and its auditing team for their
professional job and their many suggestions. We are prepared to respond to any questions you have
or provide any additional clarification you wish concerning our comments.




                                                                                              22
